Case: 20-1819

Document: 11

Page: 1

Date Filed: 02/04/2021

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1819
ANTHONY AURIEMMA,
Appellant
v.

BLOOMFIELD MUNICIPAL COURT; BLOOMFIELD POLICE STATION;
ESSEX COUNTY SUPERIOR COURT; APPELLATE COURT;
ESSEX COUNTY LANDLORD/TENANT COURT; ESSEX COUNTY FEE
ARBITRATION;
ESSEX COUNTY ETHICS COMMITTEE; GERALD SALUTI; DR. STEVEN LILIEN;
SEASIDE HEIGHTS MUNICIPAL COURT; SEASIDE HEIGHTS POLICE STATION;
BRICK POLICE; BRICK MUNICIPALITY; OCEAN COUNTY SUPERIOR COURT;
OCEAN COUNTY JAIL; OCEAN COUNTY CHOSEN BOARD OF FREEHOLDERS;
OCEAN COUNTY JUSTICE COMPLEX; OFFICE OF COMMUNICATIONS
AND COMMUNITY RELATIONS ADMINISTRATIVE OFFICES OF THE COURTS;
STATE OF NEW JERSEY
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 2-20-cv-02612)
District Judge: Honorable Susan D. Wigenton
Submitted Pursuant to Third Circuit LAR 34.1(a)
February 1, 2021
Before: AMBRO, PORTER and SCIRICA, Circuit Judges
(Opinion filed: February 4, 2021)

Case: 20-1819

Document: 11

Page: 3

Date Filed: 02/04/2021

events nor the specifics of each claim are at all clear.” (Dist. Ct. Mar. 18, 2020 Order at
1-2.) The District Court dismissed the complaint under Rule 12(b)(6) for failure to state a
claim but allowed Auriemma to file an amended complaint within 30 days.
Auriemma filed a notice of appeal, arguing that the court must accept his factual
allegations as true under Rule 12(b)(6), and that he provided support for his claims in the
materials supplementing his complaint. He appended another set of documents, along
with his original complaint. Because Auriemma’s notice of appeal was filed within the
30 days allotted for filing an amended complaint, the District Court treated the filing as
an amended complaint. The District Court noted that Auriemma raised the same claims
against the same defendants concerning “an alleged DUI, a possible eviction or illegal
lockout, claims of attorney malpractice and municipal corruption, civil rights violations,
vandalism, and assault.” (Dist. Ct. Aug. 3, 2020 Order at 1-2.) Again, citing Rules
8(a)(2) and Rule 12(b)(6), the District Court stated that the amended complaint failed to
provide a coherent account of the factual or legal bases of his claims. For that reason, the
District Court concluded that “the facts alleged in Plaintiffs Amended Complaint are
insufficient to support a claim entitling Plaintiff to relief.” (Id. at 2.) Thus, the District
Court sua sponte dismissed the action under Rule 12(b)(6), for failure to state a claim.
We have jurisdiction under 28 U.S.C. § 1291.1 Our review of the District Court’s
sua sponte dismissal of Auriemma’s complaint for failure to state a claim is plenary. See
Allah v. Seiverling, 229 F.3d 220, 223 (3d Cir. 2000).

1 Auriemma’s notice of appeal pertained to the District Court’s initial dismissal order,
which became final and appealable when Auriemma declared his intent to stand on his
3

Case: 20-1819

Document: 11

Page: 5

Date Filed: 02/04/2021

bases for relief, including civil rights violations.2 Although we agree with the District
Court that Auriemma’s complaint was deficient as filed, we cannot conclude on this
record that granting Auriemma leave to amend would be inequitable or futile.
Accordingly, we will vacate the District Court’s order dismissing the complaint
for failure to state a claim. We will remand so that Auriemma may have an opportunity
to file an amended complaint that clearly sets forth his allegations in conformity with
Rule 8(a)(2) and identifies his specific legal claims that rely on those facts. We take no
position on Auriemma’s likelihood of submitting a complaint that is sufficient to proceed
beyond sua sponte dismissal or on the merits of any potential claims.

2 As one example, Auriemma stated that on July 23, 2013, Brick Township police
officers handcuffed, harassed, and threatened him while conducting illegal searches of his
person and his property. (See Compl. at 7-8; Am. Compl. at 5.)
5

Case 2:20-cv-02612-SDW-LDW Document 2 Filed 03/18/20 Page 1 of 3 PagelD: 235

NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
ANTHONY AURIEMMA.

Civil Action No. 20-2612(SDW)(LDW)

Plaintiff,
ORDER
v.

BLOOMFIELD MUNICIPAL COURT, et
al,

March 18, 2020

Defendants.
THIS MATTER having come before this Court upon the filing of a Complaint and an
Application to Proceed in District Court Without Prepaying Fees Or Costs by pro se Plaintiff
Anthony Auriemma (“Plaintiff’), and the Court having reviewed the Complaint for sufficiency
pursuant to Fed. R. Civ. P. 8(a)(2) and (3) and Ashcroft v. Iqbal, 556 U.S. 662, 129 S. Ct. 1937,
173 L.Ed.2d 868 (2009); and
WHEREAS applications to proceed in forma pauperis are available to plaintiffs or
petitioners in order to be excused from paying certain fees for district court proceedings, including
those required to commence a civil action; and
WHEREAS Plaintiffs application to proceed without prepayment of fees and costs,
indicates that: 1) he was recently released from Ocean County Jail; 2) he is disabled and his income
is limited to $815.00 per month in disability benefits; and 3) he pays approximately $500.00 a
month for housing and relies on a friend to pay all other expenses; and
WHEREAS Plaintiffs Complaint is an extremely disjointed collection of allegations
against nineteen defendants, including his former public defender, landlord, numerous municipal

Case 2:20-cv-02612-SDW-LDW Document 2 Filed 03/18/20 Page 3 of 3 PagelD: 237

ORDERED that Plaintiffs Complaint is sua sponte DISMISSED for failure to state a
claim upon which relief can be granted pursuant to Federal Rule of Civil Procedure 12(b)(6).
Plaintiff shall have thirty (30) days to file an amended Complaint that complies with both the
Federal Rules of Civil Procedure and this Court’s Local Rules.
SO ORDERED.
/s/ Susan D. Wigenton
United States District Judge
Orig: Clerk
cc:
Parties
Leda D. Wettre, U.S.M.J.

3

Additional material
from this filing is
available in the
Clerk's Office.

